               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03416-56


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

  VA Montana Health Care System 

      Fort Harrison, Montana 





February 5, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                       CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT



                                            Glossary
                       ADA        Americans with Disabilities Act
                       AED        automated external defibrillator
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EMC        Emergency Management Committee
                       EMP        Emergency Management Plan
                       EOC        environment of care
                       FY         fiscal year
                       IT         information technology
                       MH         mental health
                       MI         motivational interviewing
                       MM         medication management
                       NA         not applicable
                       NIAAA      National Institute on Alcohol Abuse and
                                  Alcoholism
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Team
                       PCC        primary care clinic
                       PCP        primary care provider
                       PII        personally identifiable information
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                               CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    8

  DWHP Proficiency ..................................................................................................              9


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           10

  B. PACT Compass Metrics ....................................................................................                    13

  C. VISN Director Comments ..................................................................................                    17

  D. Facility Director Comments ...............................................................................                   18

  E. OIG Contact and Staff Acknowledgments .........................................................                              24

  F. Report Distribution .............................................................................................            25

  G. Endnotes ...........................................................................................................         26





VA OIG Office of Healthcare Inspections
                       CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinic (PCC) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of November 4, 2013, at the
following CBOCs which are under the oversight of the VA Montana Health Care System
and Veterans Integrated Service Network 19:

   Cut Bank CBOC, Cut Bank, MT

   Miles City CBOC, Miles City, MT

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review.                However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

	 Access to the clinic and the restroom are compliant with the Americans with
   Disability Act.

	 Hazardous materials inventory reviews occur twice within a 12-month period at the
   Cut Bank and Miles City CBOCs.

	 Signage identifying the location of fire extinguishers and exits is installed at the Cut
   Bank CBOC.

	 Information Technology (IT) server closets at the Cut Bank and Miles City CBOCs
   are maintained according to IT safety and security standards.

	 Computer screens are secured to eliminate viewing of personally identifiable
   information at the Miles City CBOC.

	 An AED is available at the Miles City CBOC.

	 Parent facility documents Emergency Management Preparedness-specific training
   completed for the clinical providers at the Cut Bank and Miles City CBOCs.

	 Parent facility’s Emergency Management Committee evaluates the Cut Bank and
   Miles City CBOCs’ emergency preparedness activities, participation in annual
   disaster exercises, and staff training/education relating to emergency preparedness
   requirements.




VA OIG Office of Healthcare Inspections                                                      i
                       CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT


Alcohol Use Disorder. Ensure that CBOC/PCC:

	 Staff consistently document diagnostic assessments for patients with a positive
   alcohol screen.

	 Staff provide education and counseling regarding the National Institute on Alcohol
   Abuse and Alcoholism limits for patients with positive alcohol screen.

	 Staff consistently document the offer of further treatment to patients diagnosed with
   alcohol dependence.

	 Registered Nurse Care Managers receive motivational interviewing training within 12
   months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	 Document medication reconciliation that              includes    the   newly    prescribed
   fluroquinolone in the electronic health record.

	 Provide medication counseling/education that includes fluoroquinolones.

	 Document the evaluation of patient’s level of understanding for medication
   education.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 17–18, for the full text of the Directors’ comments.) We consider
recommendation 6 closed. We will follow up on the planned actions for the open
recommendations until they are completed.




                                                      JOHN D. DAIGH, JR., M.D.
                                                     Assistant Inspector General for
                                                       Healthcare Inspections




VA OIG Office of Healthcare Inspections                                                      ii
                            CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                           1
                           CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT


Table 1. CBOC and PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0-12.


VA OIG Office of Healthcare Inspections                                                                              2
                                 CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted physical inspections of the Cut Bank and Miles
City CBOCs. The table below shows the areas reviewed for this topic. The areas marked as
NM did not meet applicable requirements and needed improvement.

Table 2. EOC

 NM                   Areas Reviewed                                       Findings
        The CBOC’s location is clearly
        identifiable from the street as a VA
        CBOC.
        The CBOC has interior signage available
        that clearly identifies the route to and
        location of the clinic entrance.
  X     The CBOC is ADA accessible.                     The handicapped accessible restroom door
                                                        hardware at the Cut Bank CBOC was
                                                        difficult to grasp with one hand and required
                                                        tight grasping, pinching, or twisting of the
                                                        wrist to operate.

                                                        The handicapped accessible door accessed
                                                        via the ramp from the Cut Bank CBOC
                                                        parking lot into the lobby was difficult to
                                                        grasp with one hand and required tight
                                                        grasping, pinching, or twisting of the wrist to
                                                        operate.
        The furnishings are clean and in good
        repair.
        The CBOC is clean.
  X     The CBOC maintains an inventory of              The CBOC’s inventory of hazardous
        hazardous materials and waste that it           materials at the Cut Bank and Miles City
        uses, stores, or generates.                     CBOCs was reviewed for accuracy annually
                                                        rather than twice within the prior 12 months.
        An alarm system and/or panic buttons are
        installed in high-risk areas (e.g., MH
        clinic).
        Alcohol hand wash or soap dispenser
        and sink are available in the examination
        rooms.
        Sharps containers are secured.


VA OIG Office of Healthcare Inspections                                                                   3
                                 CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT


 NM                  Areas Reviewed                                        Findings
        Safety needle devices are available.
        The CBOC has a separate storage room
        for storing medical (infectious) waste.
        The CBOC conducts fire drills at least
        every 12 months.
        Means of egress from the building are
        unobstructed.
        Access to fire alarm pull stations is
        unobstructed.
        Access to fire extinguishers is
        unobstructed.
  X     The CBOC has signs identifying the              There were no signs identifying the location
        locations of fire extinguishers.                of one fire extinguisher at the Cut Bank
                                                        CBOC.
  X     Exit signs are visible from any direction.      There were no exit signs identifying one
                                                        means of egress at the Cut Bank CBOC.
        No expired medications were noted
        during the onsite visit.
        All medications are secured from
        unauthorized access.
        PII is protected on laboratory specimens
        during transport so that patient privacy is
        maintained.
        Adequate privacy is provided to patients
        in examination rooms.
        Documents containing patient-identifiable
        information are not laying around, visible,
        or unsecured.
        Window coverings provide privacy.
        The CBOC has a designated examination
        room for women veterans.
        Adequate privacy is provided to women
        veterans in the examination room.
  X     The IT network room/server closet is        Access to the IT network room/server closet
        locked.                                     at the Cut Bank and Miles City CBOCs was
                                                    not documented.
  X     All computer screens are locked when        All computer screens at the Miles City
        not in use.                                 CBOC were not locked when not in use.
        Staff use privacy screens on monitors to
        prevent unauthorized viewing in high-
        traffic areas.
        EOC rounds are conducted semi-
        annually (at least twice in a 12-month
        period).



VA OIG Office of Healthcare Inspections                                                                4
                                 CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT


 NM                Areas Reviewed                                         Findings
  X       The CBOC has an AED.                           The Miles City CBOC did not have an AED.
                                                         We found a code cart which is not in
                                                         compliance with local emergency policy.
          Safety inspections are performed on
          CBOC medical equipment in accordance
          with VA and Joint Commission standards.
     X    The parent facility includes the CBOC in       The parent facility did not document EMP-
          required education, training, planning,        specific training for Cut Bank and Miles City
          and participation leading up to the annual     CBOCs’ clinical providers.
          disaster exercise.
     X    The parent facility’s Emergency                The parent facility’s EMC did not evaluate
          Management Committee evaluates                 the Cut Bank and Miles City CBOCs’
          CBOC emergency preparedness                    emergency preparedness activities,
          activities, participation in annual disaster   participation in annual disaster exercise, and
          exercise, and staff training/education         staff training/education relating to
          relating to emergency preparedness             emergency preparedness requirements.
          requirements.

1.       We recommended that the side entrance door is ADA accessible at the Cut Bank CBOC.

2. 	 We recommended that the restroom is ADA accessible at the Cut Bank CBOC.

3. 	 We recommended that processes are improved to ensure review of the hazardous
     materials inventory occurs twice within a 12-month period for the Cut Bank and Miles City
     CBOCs.

4. 	 We recommended that signage is installed at the Cut Bank CBOC to clearly identify the
     location of fire extinguishers.

5. 	 We recommended that signage is installed at the Cut Bank CBOC to clearly identify exits.

6. 	 We recommended that the IT server closets at the Cut Bank and Miles City CBOCs are
     maintained according to IT safety and security standards.

7. 	 We recommended that computer screens are secured to eliminate viewing of PII by
     unauthorized individuals at the Miles City CBOC.

8. 	 We recommended that managers ensure that an AED is available at the Miles City CBOC.

9. 	 We recommended that the parent facility document EMP-specific training completed for the
     Cut Bank and Miles City CBOCs’ clinical providers.

10. 	We recommended that the parent facility’s EMC evaluate the Cut Bank and Miles City
     CBOCs’ emergency preparedness activities, participation in annual disaster exercises, and
     staff training/education relating to emergency preparedness requirements.




VA OIG Office of Healthcare Inspections                                                                  5
                                 CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 35 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

 NM                   Areas Reviewed                                    Findings
        Alcohol use screenings are completed
        during new patient encounters, and at
        least annually.
  X     Diagnostic assessments are completed         Staff did not complete diagnostic
        for patients with a positive alcohol screen. assessments for 11 (31 percent) of 35
                                                     patients who had positive alcohol use
                                                     screens.
  X     Education and counseling about drinking Staff did not provide education and
        levels and adverse consequences of           counseling for 2 of 18 patients who had
        heavy drinking are provided for patients     positive alcohol use screens and drinking
        with positive alcohol screens and drinking levels above NIAAA guidelines.
        levels above NIAAA guidelines.
  X     Documentation reflects the offer of further We did not find documentation of the offer of
        treatment for patients diagnosed with        further treatment for 3 of 9 patients
        alcohol dependence.                          diagnosed with alcohol dependence.
        For patients with AUD who decline
        referral to specialty care, CBOC/PCC
        staff monitored them and their alcohol
        use.
        Counseling, education, and brief
        treatments for AUD are provided within 2
        weeks of positive screening.
  X     CBOC/PCC RN Care Managers have               We found that 5 of 27 RN Care Managers
        received MI training within 12 months of     did not receive MI training within 12 months
        appointment to PACT.                         of appointment to PACT.
        CBOC/PCC RN Care Managers have
        received National Center for Health
        Promotion and Disease Prevention
        approved health coaching training (most
        likely TEACH for Success) within 12
        months of appointment to PACT.
        The facility complied with any additional
        elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                6
                                 CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT


11.	 We recommended that CBOC/PCC staff consistently complete follow-up assessments for
     patients with a positive alcohol screen.

12.	 We recommended that CBOC/PCC staff provide education and counseling for patients with
     a positive alcohol screen and drinking levels above NIAAA limits.

13. We recommended that CBOC/PCC staff consistently document the offer of further
    treatment to patients diagnosed with alcohol dependence.

14.	 We recommended that CBOC/PCC RN Care Managers receive MI training within
     12 months of appointment to PACT.




VA OIG Office of Healthcare Inspections                                                                7
                                 CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 38 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

 NM              Areas Reviewed                                           Findings
  X Clinicians documented the medication                We did not find documentation that
    reconciliation process that included the            medication reconciliation included the newly
    fluoroquinolone.                                    prescribed fluroquinolone in 25 (66 percent)
                                                        of 38 patients’ EHRs.
       Written information on the patient’s
       prescribed medications was provided at
       the end of the outpatient encounter.
  X    Medication counseling/education for the          We did not find documentation of medication
       fluoroquinolone was documented in the            counseling that included the fluoroquinolone
       patients’ EHRs.                                  in 33 (87 percent) of 38 patients’ EHRs.
  X    Clinicians documented the evaluation of          Clinicians did not document the level of
       each patient’s level of understanding for        understanding for 3 of 5 patients.
       the education provided.
       The facility complied with local policy.

15. We recommended that CBOC/PCC staff document medication reconciliation that includes
    the newly prescribed fluoroquinolones in the EHR.

16. We r	 ecommended that CBOC/PCC staff provide                        and    document      medication
    counseling/education that includes the fluoroquinolone.

17. We recommended that CBOC/PCC staff document the evaluation of patient’s level of
    understanding for the medication education.




VA OIG Office of Healthcare Inspections                                                                8
                                 CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCC complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, primary care management
module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic; NM denotes criterion “not met.” The facility generally met
requirements. We made no recommendations.

Table 5. DWHP Proficiency

 NM                  Areas Reviewed                                        Findings
        CBOC and PCC DWHPs maintained
        proficiency requirements.
        CBOC and PCC DWHPs were
        designated with the WH indicator in the
        Primary Care Management Model.




VA OIG Office of Healthcare Inspections                                                                9
                                                                     CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT
                                                                                                                                 Appendix A


                                                                    CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                     Uniquesd                                  Encountersd

                             Station                      CBOC
        Location     State                Localitye                     MHg        PCh      Otheri       All       MHg        PCh       Otheri      All
                                #                          Sizef
    Billings          MT      436GH         Urban          Large       1,491      5,706      8,773      9,530     9,926      18,111    53,387     81,424
    Missoula          MT      436GC         Urban          Large       1,066      5,342      4,812      6,514     6,396      16,340    22,603     45,339
    Kalispell         MT      436GF         Rural        Mid-Size      1,149      4,270      3,275      4,926     7,019      13,774    12,308     33,101
    Great Falls       MT      436GB         Urban        Mid-Size       833       3,696      2,716      4,269     4,892      10,993     6,670     22,555
    Bozeman           MT      436GD         Rural        Mid-Size       474       2,056      1,876      3,027     1,844      5,135      4,290     11,269
    Miles City        MT      436GJ      Highly Rural    Mid-Size       339       1,114      1,060      1,767      999       3,080      4,903      8,982
    Anaconda          MT      436GA         Rural          Small        395       1,066       771       1,461     1,559      2,994      3,494      8,047
    Glendive          MT      436GK      Highly Rural      Small        307        507        370       809        747       1,495       700       2,942
    Lewistown         MT     436GM       Highly Rural      Small         50        538        386       578        111       2,232      1,173      3,516
    Cut Bank          MT      436GL      Highly Rural      Small         46        447        294       469        141       1,650       763       2,554
    Glasgow           MT      436GI      Highly Rural      Small         35        415        246       457        111       1,390       432       1,933




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                   10
                          CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT


                                  CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.j

                                                                                              Tele-Health
          CBOC           Specialty Care Servicesk            Ancillary Servicesl
                                                                                               Servicesm
    Billings                  Orthopedics                        Laboratory                Tele Primary Care
                               Cardiology                        Radiology
                               Neurology                    Electrocardiography
                            Gastroenterology              Computer Tomography
                                 Urology                     MOVE! Programn
                           Medicine Specialties               Sleep Medicine
                                                                  Nutrition
                                                         Diabetic Retinal Screening
                                                                 Pharmacy
                                                         Pulmonary Function Test
                                                             Echocardiography
    Missoula                   Orthopedics                     Rehabilitation              Tele Primary Care
                              Ophthalmology                   MOVE! Program
                                                                 Pharmacy
                                                            Electrocardiography
                                                         Diabetic Retinal Screening
                                                              Sleep Medicine
                                                               Diabetes Care
    Kalispell                   Orthopedics                   MOVE! Program                Tele Primary Care
                           Ear, Nose and Throat             Electrocardiography
                                                         Diabetic Retinal Screening
                                                              Sleep Medicine
    Great Falls                      ---                      MOVE! Program                Tele Primary Care
                                                            Electrocardiography
                                                         Diabetic Retinal Screening
                                                              Sleep Medicine
                                                         Pulmonary Function Test
    Bozeman                   Ophthalmology                   MOVE! Program                Tele Primary Care
                                                            Electrocardiography
                                                         Diabetic Retinal Screening
    Miles City                       ---                       Rehabilitation              Tele Primary Care
                                                              MOVE! Program
                                                            Electrocardiography
                                                                 Pharmacy
                                                                 Teleretinal
    Anaconda                         ---                      MOVE! Program                Tele Primary Care
                                                            Electrocardiography
                                                         Diabetic Retinal Screening
                                                             Health Screening

j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified 

CBOC.

k
  Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

l
  Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

m
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                        11
                        CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT


 Glendive Montana                ---                MOVE! Program           Tele Primary Care
                                                   Electrocardiography
                                                    Health Screening
                                                        Teleretinal
 Lewistown                       ---                 MOVE! Program          Tele Primary Care
                                                   Electrocardiography
                                                    Health Screening
                                                        Teleretinal
 Cut Bank                        ---                 MOVE! Program          Tele Primary Care
                                                   Electrocardiography
                                                    Health Screening
                                                        Teleretinal
 Glasgow                         ---                 MOVE! Program          Tele Primary Care
                                                   Electrocardiography
                                                    Health Screening
                                                        Teleretinal




VA OIG Office of Healthcare Inspections                                                         12
                                                                                                   CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT
                                                                                                                                                               Appendix B

                                                                                       PACT Compass Metrics
                                                             FY 2013 Average 3rd Next Available in PC Clinics
                              50.0
                              45.0
     Average Number of Days




                              40.0
                              35.0
                              30.0
                              25.0
                              20.0
                              15.0
                              10.0
                               5.0
                               0.0
                                                 Montana      Anaconda   Great Falls   Missoula   Bozeman   Kalispell    Billings   Glasgow   Miles City   Glendive   Cut Bank   Lewistown
                                     VHA Total
                                                 HCS (436)     (436GA)    (436GB)      (436GC)    (436GD)   (436GF)     (436GH)     (436GI)    (436GJ)     (436GK)    (436GL)     (436GM)
                          OCT FY13     14.6        13.8         0.5         2.0          2.6        2.0        6.8        15.5        7.2        5.5         2.2        0.9         3.2
                          NOV FY13     15.2         7.3         1.4         11.4         3.6        4.8        7.0        14.5       44.9        2.9         4.1        2.8         2.8
                          DEC FY13     13.8         6.4         1.3         2.3          5.0        3.8       10.1        13.1        0.0        3.8         3.2        2.3         2.2
                          JAN FY13     14.0         5.8         3.8         3.1          3.8        4.1        7.1        11.2        1.1       16.5         11.6       3.9         2.6
                          FEB FY13     14.8        10.8         10.8        3.9          5.6        3.7        8.3        11.5        1.6       10.6         25.8       3.6         2.5
                          MAR FY13     13.3         8.3         8.8         4.5          7.0        2.7        4.6        10.0        1.2        9.0         10.0       2.0         1.2
                          APR FY13     14.4        11.0         9.4         6.5          5.8        7.8        6.1         8.2        3.1        8.1         23.3       2.0         1.2
                          MAY FY13     16.0        15.4         8.5         11.0         9.8        15.0       6.8         8.6        5.9        9.6         23.3       5.8         6.1
                          JUN FY13     14.2        21.5         8.2         19.5         14.6       20.4       6.4        13.4       12.3        9.5         13.1       3.7         4.4
                          JUL FY13     14.6        19.4         13.4        23.7         12.1       26.9      12.8        14.4        7.3        4.0         11.0       2.3         4.3
                          AUG FY13     15.7        20.0         14.3        15.4         7.3        5.2        9.5        15.9        5.0        7.1         23.2       3.1        18.2
                          SEP FY13     13.4        10.5         4.1         5.9          4.8        7.9        9.2        13.5        4.3        5.4         14.1       1.9         3.1




Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
350. Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level.

VA OIG Office of Healthcare Inspections                                                                                                                                                      13
                                                                                                       CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT



                                                                     FY 2013 Established PC Prospective Wait Times 7 Days
    Percentage of Patients Scheduled      100%
     Within 7 Days of Desired Date


                                            80%




                                            60%




                                            40%




                                            20%




                                             0%
                                                               Montana Anaconda Great Falls Missoula   Bozeman   Kalispell    Billings   Glasgow   Miles City   Glendive   Cut Bank Lewistown
                                                   VHA Total
                                                               HCS (436) (436GA) (436GB)    (436GC)    (436GD)   (436GF)     (436GH)     (436GI)    (436GJ)     (436GK)    (436GL)   (436GM)
                                        OCT FY13     83%        37.5%     100.0%    91.7%     58.6%     54.0%     87.6%       64.8%       68.0%      82.1%      100.0%      86.6%     76.6%
                                        NOV FY13    81.1%       26.0%     100.0%    95.8%     58.0%     58.9%     75.9%       60.0%       88.2%      75.7%      100.0%      81.1%     73.4%
                                        DEC FY13    82.4%       42.7%     100.0%    96.4%     58.4%     68.1%     78.7%       64.2%       94.7%      73.3%      100.0%      80.3%     73.8%
                                        JAN FY13    82.6%       45.0%     100.0%   100.0%     59.2%     52.9%     78.0%       69.2%       83.8%      69.4%       30.2%      79.7%     92.6%
                                        FEB FY13    83.2%       36.1%     95.7%     96.3%     67.4%     63.9%     82.1%       81.7%       91.7%      82.9%       39.3%      74.7%     83.7%
                                        MAR FY13    83.6%       48.8%     82.8%     92.3%     71.6%     64.0%     83.6%       81.1%       93.2%      75.4%       47.0%      80.3%     73.0%
                                        APR FY13    84.0%       38.9%     83.8%     96.4%     76.7%     66.5%     81.3%       80.6%       95.7%      68.7%       48.8%      79.4%     62.0%
                                        MAY FY13    84.0%       29.0%     84.5%     92.0%     71.5%     53.5%     81.4%       81.5%       97.6%      65.5%       39.0%      63.3%     73.6%
                                        JUN FY13    84.1%       51.6%     85.7%     92.7%     73.6%     54.9%     84.3%       88.9%       96.5%      84.3%       59.1%      71.2%     82.4%
                                        JUL FY13    84.3%       65.1%     91.9%     89.8%     80.3%     67.7%     88.9%       92.5%       85.4%      95.2%       68.1%      85.2%     94.0%
                                        AUG FY13    84.5%       64.9%     90.5%     90.5%     80.3%     70.5%     91.0%       91.2%       87.0%      97.4%       67.9%      87.9%     89.5%
                                        SEP FY13    84.7%       66.6%     78.7%     89.1%     82.7%     75.4%     86.8%       90.8%       90.4%      97.9%       68.0%      90.0%     90.4%



Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the
1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.

VA OIG Office of Healthcare Inspections                                                                                                                                                         14
                                                                                        CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT



                                                        FY 2013 Ratio of ER Encounters While on Panel to
                                                         PC Encounters While on Panel (FEE ER Included)
                                         38%
                                         36%
                                         34%
                                         32%
          Percentage of ER Encounters 

                                         30%
                                         28%
                                         26%
                                         24%
               to PC Encounters



                                         22%
                                         20%
                                         18%
                                         16%
                                         14%
                                         12%
                                         10%
                                          8%
                                          6%
                                          4%
                                          2%
                                          0%
                                               OCT FY13 NOV FY13 DEC FY13   JAN FY13   FEB FY13 MAR FY13 APR FY13 MAY FY13 JUN FY13   JUL FY13   AUG FY13 SEP FY13
        VHA Total                               16.3%    16.3%    16.4%      16.3%      16.3%    16.3%    16.1%    16.1%    16.0%      15.9%      15.8%    15.7%
         Montana HCS (436)                      36.5%    36.0%    35.6%      35.5%      35.0%    34.3%    33.7%    32.7%    31.1%      30.9%      30.7%    30.6%
        Anaconda (436GA)                        12.6%    12.9%    12.7%      12.7%      12.5%    12.5%    12.8%    13.8%    13.2%      13.1%      13.7%    13.4%
        Great Falls (436GB)                     8.6%      8.4%     8.6%      8.2%       8.1%     7.6%      7.8%     7.9%     7.5%      7.0%        7.1%     6.3%
        Missoula (436GC)                        8.7%      8.8%     8.7%      8.8%       8.8%     8.4%      8.3%     8.1%     7.9%      7.4%        6.8%     6.2%
        Bozeman (436GD)                         10.4%    10.0%     9.7%      9.6%       6.9%     7.2%      8.0%     8.5%     8.9%      8.7%        8.7%     8.5%
        Kalispell (436GF)                       6.3%      6.1%     6.0%      5.8%       5.5%     5.5%      5.5%     5.2%     5.2%      4.8%        4.5%     4.2%
        Billings (436GH)                        3.5%      3.5%     3.3%      3.2%       3.2%     3.1%      3.0%     2.9%     2.9%      2.7%        2.4%     2.3%
        Glasgow (436GI)                         7.5%      5.8%     5.1%      8.3%       5.1%     4.1%      4.4%     3.9%     2.8%      0.8%        0.5%     0.8%
        Miles City (436GJ)                      3.7%      4.1%     3.8%      3.4%       3.8%     3.8%      3.6%     3.7%     3.7%      3.5%        3.1%     2.8%
        Glendive (436GK)                        1.8%      1.8%     2.0%      3.8%       4.2%     3.3%      3.0%     2.6%     2.0%      2.3%        2.3%     1.8%
        Cut Bank (436GL)                        8.1%      7.0%     6.9%      6.6%       6.3%     6.4%      5.0%     4.1%     4.2%      4.2%        3.8%     3.5%
        Lewistown (436GM)                       7.6%      7.6%     7.2%      7.2%       7.4%     6.5%      6.0%     5.7%     5.5%      4.5%        3.5%     2.3%




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.
VA OIG Office of Healthcare Inspections                                                                                                                              15
                                                                              CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT



                                          FY 2013 2‐Day Contact Post Discharge Ratio
      100%
       90%
       80%
       70%
       60%
       50%
       40%
       30%
       20%
       10%
         0%
                            Montana     Anaconda   Great Falls   Missoula   Bozeman   Kalispell    Billings   Glasgow   Miles City   Glendive   Cut Bank   Lewistown
                VHA Total
                            HCS (436)    (436GA)    (436GB)      (436GC)    (436GD)   (436GF)     (436GH)     (436GI)    (436GJ)     (436GK)    (436GL)     (436GM)
     OCT FY13    52.8%       53.2%       50.0%       54.5%        51.2%      43.8%     50.0%       30.3%       0.0%       16.7%       50.0%       0.0%       40.0%
     NOV FY13    52.9%       59.0%       100.0%      56.5%        37.9%      12.5%     39.1%       20.0%       33.3%      14.3%      100.0%      33.3%       0.0%
     DEC FY13    51.5%       51.9%       33.3%       26.9%        37.8%      26.7%     27.3%       41.4%       0.0%       33.3%       50.0%      66.7%       50.0%
     JAN FY13    57.2%       55.6%       66.7%       31.6%        40.6%      54.5%     23.5%       21.2%       0.0%       33.3%        0.0%                  75.0%
     FEB FY13    60.4%       51.2%       100.0%      57.1%        28.1%      18.8%     38.5%       39.3%       0.0%       25.0%        0.0%     100.0%      100.0%
     MAR FY13    64.4%       57.1%       87.5%       11.1%        31.7%      15.4%     60.9%       54.1%                  20.0%                   0.0%       60.0%
     APR FY13    65.5%       65.1%       66.7%       53.3%        40.0%      25.0%     38.9%       63.3%       50.0%      60.0%       33.3%      50.0%       25.0%
     MAY FY13    66.1%       70.7%       60.0%       55.6%        35.5%      54.5%     38.9%       57.1%       50.0%      33.3%      100.0%     100.0%       0.0%
     JUN FY13    70.1%       77.3%       100.0%      50.0%        36.4%      25.0%     42.9%       57.9%      100.0%      0.0%         0.0%      33.3%
     JUL FY13    71.1%       81.4%       100.0%      50.0%        25.0%      33.3%     33.3%       71.4%                                          0.0%       0.0%
     AUG FY13    72.7%       82.4%       100.0%      63.2%        47.4%      20.0%     70.0%       68.8%                  50.0%                  80.0%      100.0%
     SEP FY13    68.9%       65.8%       40.0%       77.8%        48.3%      63.6%     52.9%       84.6%      100.0%      0.0%         0.0%     100.0%




Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric. Blank cells indicate the absence of reported data.


VA OIG Office of Healthcare Inspections                                                                                                                                16
                        CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT
                                                                                    Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


           Date:       January 13, 2014

          From:        Director, VISN 19 (10N19)

       Subject:        CBOC and PCC Reviews of the VA Montana Health Care
                       System, Fort Harrison, MT

             To:       Director, Seattle Office of Healthcare Inspections (54SE)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       I have reviewed and concurred on the response from VA Montana Health
       Care System. If you have any further questions, please contact Ms.
       Susan Curtis, VISN 19 HSS at (303) 639-6995.




VA OIG Office of Healthcare Inspections                                                      17
                        CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT
                                                                                    Appendix D
                             Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       January 13, 2014

          From:        Director, VA Montana Health Care System (436/00)

       Subject:        CBOC and PCC Reviews of the VA Montana Health Care
                       System, Fort Harrison, MT

             To:       Director, Rocky Mountain Health Care Network (VISN19)

           1. The VA Montana Health Care System has reviewed and concurs
              with the findings included in the draft Community Based Outpatient
              Clinic and Primary Care Clinic Report. A response is provided
              along with target dates of completion for each recommendation.

           2. If you have questions or need additional information, please contact
              Vicki Thennis Chief Quality Management Officer at 406-447-7863
              or vicki.thennis@va.gov.




           (original signed by:)

           Christine Gregory, FACHE

           Director, VA Montana Health Care System (436/00)




VA OIG Office of Healthcare Inspections                                                      18
                        CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the side entrance door is ADA accessible

at the Cut Bank CBOC. 


Concur


Target date for completion: 4/1/2014 


Facility response: VA Montana Health Care System (VAMTHCS) will ensure ADA 

compliant automatic door opener is properly functioning. We will also ensure door

hardware is ADA compliant. 


Recommendation 2. We recommended that the restroom is ADA accessible at the Cut 

Bank CBOC. 


Concur


Target date for completion: 4/1/2014 


Facility response: VAMTHCS will ensure door hardware is ADA compliant. 


Recommendation 3. We recommended that processes are improved to ensure review 

of the hazardous materials inventory occurs twice within a 12-month period for the Cut 

Bank and Miles City CBOCs. 


Concur


Target date for completion: 9/30/2014 


Facility response: VAMTHCS will develop and implement a program ensuring a review 

of the hazardous materials inventory occurs twice within a 12 month period. 


Recommendation 4. We recommended that signage is installed at the Cut Bank

CBOC to clearly identify the location of fire extinguishers. 


Concur 


Target date for completion: 4/1/2014 


Facility response: The fire extinguisher in question will be moved to the lobby and a sign 

will be posted indicating fire extinguisher. 




VA OIG Office of Healthcare Inspections                                                      19
                        CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT


Recommendation 5. We recommended that signage is installed at the Cut Bank
CBOC to clearly identify exits.

Concur

Target date for completion: 6/1/2014

Facility response: VAMTHCS will install “Not an Exit” sign on the door that leads to the
outside of the clinic through the back. Staff at the Cut Bank CBOC will be educated and
trained that this door is not an exit and in case of emergency patients and staff are to
exit from the building through the front exit door.

Recommendation 6. We recommended that the IT server closets at the Cut Bank and
Miles City CBOCs are maintained according to IT safety and security standards.

Concur

Target date for completion: Completed

Facility response: Access logs have been placed in the IT closets at the Cut Bank and
Miles City CBOCs. Local staff have been given instruction related to VA Handbook
6500, Appendix D in regards to the requirement for visitors to log in when visiting the IT
spaces.

Recommendation 7. We recommended that computer screens are secured to
eliminate viewing of PII by unauthorized individuals at the Miles City CBOC.

Concur

Target date for completion: 9/30/2014

Facility response: The Privacy Officer participated in EOC rounds to the Cut Bank
CBOC on November 13, 2013 and the Miles City CBOC on December 12, 2013. Staff
at both CBOCs were provided instruction on the need for keeping computer screens
secured to eliminate viewing of PII by unauthorized individuals. Monitoring of this
activity will occur during the monthly CBOC inspections by CBOC leaders for the next 4
months and during scheduled team EOC rounds by the Privacy Officer (or designees)
during the remainder of FY 2014.

Recommendation 8. We recommended that managers ensure that an AED is
available at the Miles City CBOC.

Concur

Target date for completion: 6/1/2014




VA OIG Office of Healthcare Inspections                                                      20
                        CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT


Facility response: An order for an AED has been placed and it will be put into service in
the Miles City CBOC upon arrival. The Nurse Manager has been designated the point
of contact for ensuring placement, training and monitoring of this device.

Recommendation 9. We recommended that the parent facility document EMP-specific
training completed for the Cut Bank and Miles City CBOCs’ clinical providers.

Concur

Target date for completion: 6/1/2014

Facility response: The Emergency Preparedness Coordinator will ensure clinical
providers at VAMTHCS CBOCs complete the required Emergency Management
training module(s) and will include documentation of that training in the Emergency
Management Committee minutes at least annually.

Recommendation 10. We recommended that the parent facility’s EMC evaluate the
Cut Bank and Miles City CBOCs’ emergency preparedness activities, participation in
annual disaster exercises, and staff training/education relating to emergency
preparedness requirements.

Concur

Target date for completion: 6/1/2014

Facility response: The Emergency Preparedness Coordinator will ensure disaster
exercise plans, scenarios, and critiques are included in the regular Emergency
Management Committee minutes. Committee members will be asked to review and
approve of these elements and to help ensure staff training and education, in order to
fully comply with this recommendation.

Recommendation 11. We recommended that CBOC/PCC staff consistently complete
follow-up assessments for patients with a positive alcohol screen.

Concur

Target date for completion: 7/1/2014

Facility response: The National Clinical reminder for alcohol use was reviewed and is in
place in the electronic medical record for use. The Associate Chief of Staff Ambulatory
Care will provide instruction to all CBOC providers to consistently complete follow-up
assessments for patients with a positive alcohol screen utilizing the entire national
clinical reminder for follow-up to a positive AUDIT C screen. The nurse managers for
Ambulatory Care will conduct an audit of patient records with a positive AUDIT C screen
for 90 days to monitor compliance.




VA OIG Office of Healthcare Inspections                                                      21
                        CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT


Recommendation 12. We recommended that CBOC/PCC staff provide education and
counseling for patients with positive alcohol screen and drinking levels above NIAAA
limits.

Concur

Target date for completion: 7/1/2014

Facility response: The facility CAC will modify the dialog in the National Clinical
reminder to prompt the clinical staff to provide education and counseling for patient with
positive alcohol screens and drinking levels above NIAAA limits. A template is being
developed to assist in documentation of the education provided to the patient. The
Associate Chief of Staff for Ambulatory Care will provide instruction to all CBOC
providers to convey the education and counseling as appropriate for patients with
positive alcohol screens and to document the counseling utilizing the template. The
nurse managers for Ambulatory Care will conduct an audit of patient records with a
positive AUDIT C screen for 90 days to monitor compliance.

Recommendation 13. We recommended that CBOC/PCC staff consistently document
the offer of further treatment to patients diagnosed with alcohol dependence.

Concur

Target date for completion: 7/1/2014

Facility response: The facility CAC will modify the dialog in the National Clinical
reminder to prompt the clinical staff to offer a referral for further treatment to patients
diagnosed with alcohol dependence. A template is being developed to assist in
documentation of the referral offer and education provided to the patient. The Associate
Chief of Staff for Ambulatory Care will provide instruction to all CBOC providers to offer
a referral for further treatment and counseling as appropriate for patients diagnosed with
alcohol dependence and to document utilizing the template. The nurse managers for
Ambulatory Care will conduct an audit of patient records with a positive AUDIT C screen
for 90 days to monitor compliance.

Recommendation 14. We recommended that CBOC/PCC RN Care Managers receive
MI training within 12 months of appointment to PACT.

Concur

Target date for completion: 4/1/2014

Facility response: As of date there have been multiple training opportunities offered and
the Education Service has worked with managers to make sure targeted staff attend the
trainings. Those that were on the list of not receiving MI training have already
completed or are on a schedule to complete the training. Going forward, the Education
Service will work with Ambulatory Care managers quarterly to identify staff needing the
mandatory training and schedule it appropriately.


VA OIG Office of Healthcare Inspections                                                      22
                        CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT


Recommendation 15. We recommended that CBOC/PCC staff document medication
reconciliation that includes the newly prescribed fluoroquinolones in the EHR.

Concur

Target date for completion: 7/1/2014

Facility response: The Pharmacy Service Chief will place fluoroquinolones in a special
ordering category that gives prompts for additional requirements, such as medication
reconciliation, when ordering these medications. The Associate Chief of Staff for
Ambulatory Care will provide instruction to all CBOC providers to complete medication
reconciliation when ordering Fluoroquinolones and document it using the Med Rec
Outpatient note. The Quality Department will audit a sampling of EHRs for 90 days to
monitor compliance and will report the results to the P&T committee.

Recommendation 16. We recommended that CBOC/PCC staff provide and document
medication counseling/education that includes the fluoroquinolone.

Concur

Target date for completion: 7/1/2014

Facility response: The Associate Chief of Staff for Ambulatory Care will instruct
providers to include patient education specific to Fluoroquinolones when ordering the
medication and to document that education in the EHR. The medication reconciliation
template will include the education provided to the patient regarding Fluorquinolone use.
The Quality Department will audit a sampling of EHRs for 90 days to monitor
compliance and will report the results to the P&T committee.

Recommendation 17. We recommended that CBOC/PCC staff document the
evaluation of patient’s level of understanding for the medication education.

Concur

Target date for completion: 7/1/2014

Facility response: The Associate Chief of Staff for Ambulatory Care will instruct
providers to include patient education specific to Fluoroquinolones when ordering the
medication and to document that education including the patient’s response to the
education in the EHR. The medication reconciliation template will include the education
provided and the patient’s response to the education regarding Fluoroquinolone use.
The Quality Department will audit a sampling of EHRs for 90 days to monitor
compliance and will report the results to the P&T committee.




VA OIG Office of Healthcare Inspections                                                      23
                        CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT
                                                                                    Appendix E

                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Mary Noel Rees, MPA, Team Leader
Contributors            Sarah Lutter, RN, JD
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Marc Lainhart, BS
                        Sami O’Neill, MA
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      24
                        CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT
                                                                                    Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 19 (10N19)
Director, VA Montana Health Care System (436/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Max Baucus, John Tester
U.S. House of Representatives: Steve Daines


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      25
                            CBOC and PCC Reviews at VA Montana Health Care System, Fort Harrison, MT
                                                                                        Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP) and Office of Veteran Health Education
   and Information (NVEI), Patient Education: TEACH for Success, 2010. Retrieved from
   http://www.prevention.va.gov/HealthPOWER_Prevention_News_Summer_2010_VHEI.asp on
   January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013. 


 




VA OIG Office of Healthcare Inspections                                                                    26
